NO.:

IN THE

SUPREME COURT OF THE UNITED STATES

Samuel Jackson - Petitioner;
v.
State of Indiana - Respondent;

WRIT OF CERTIORARI APENDIX

Attorney for Appellant
Samuel Lee Jackson,
Petitioner / Pro se
DOC #913731
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, IN 46064-9001

1

3fn tfje

Jhrbtarta Supreme Court
Court of Appeals Case No.
20A-PC-01538

Samuel Lee Jackson,
Appellants),

Trial Court Case No.
02D06-1204-PC-54

V.

FILED
May 13 2021,12:04 pm

CLERK

Indiana Supreme Court
Court of Appeals .
W. and Tax Court J

State Of Indiana,
Appellee(s).

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENTES the petition to transfer.
Done at Indianapolis, Indiana, on 5/13/2021-----.

Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

5

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D), this
Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

FILED
Mar 16 2021,8:58 am

CLERK

Indiana Supreme Court
k Court of Appeals *
and Tax Court ^

Appellant Pro Se

Attorneys for Appellee

Samuel Lee Jackson
Pendleton, Indiana

Theodore E. Rokita
Attorney General of Indiana
Tiffany A. McCoy
Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Samuel Lee Jackson,

March 16, 2021

Appellant,

Court of Appeals Case No.
20A-PC-1538
Appeal from the Allen Superior
Court

v.

State of Indiana,

The Honorable David M. Zent,
Judge
Trial Court Cause No.
02D06-1204-PC-54

Appellee.

Brown, Judge.

Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 1 March 16,2021

10

Page 1 of 15

[i]

Samuel Lee Jackson appeals the denial of his petition for post-conviction relief.
Jackson raises several issues which we revise and restate as whether the post­
conviction court abused its discretion in its ruling on his requests for judicial
notice, and in denying his motions for discovery requests and to set an
evidentiary hearing. We affirm.
Facts and Procedural History

[2]

The relevant facts as discussed in Jackson’s direct appeal follow:
[Ojn June 18, 2000, Glendora Shorts had an argument and
physical altercation with Jackson, her boyfriend of ten years. As
Jackson left Shorts’ house, he threatened to kill her and her
children. Shortly after midnight, Shorts’ daughter, D.B., left
Shorts’ upstairs bedroom where she had been watching a movie
with her mother and went to the bathroom, which was on the
same floor as the bedroom. While in the bathroom, D.B. heard
four “punching” sounds. She left the bathroom and found that her
mother’s bedroom door was closed and could not be opened all
the way. D.B. was able to see someone wearing a red shirt
through a crack in the door; Jackson had been wearing a red shirt
earlier in the day. D.B. then heard a voice she clearly recognized
as Jackson’s say “I’m naked and you can’t come in here, your
mom know [sic] I’m here.” She ran downstairs to the basement
bedroom of her brother, R.S., who called 911. R.S. then heard
someone that he was “positive” was Jackson yelling at D.B. After
police arrived at the residence, D.B. noticed that the front door
was open, and she went upstairs with an officer to Shorts’
bedroom. Shorts was found lying in a pool of blood. A
pathologist determined Shorts died from multiple blunt force
injuries to the head consistent with being beaten with a baseball
bat; a bat with red stains and hair stuck to it was found on the
front porch. The State charged Jackson with murder and
residential entry on June 22,2000; the habitual offender allegation
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 | March 16, 2021

1

Page 2 of 15

was added in July 2000.... The jury returned guilty verdicts for
both charges and found Jackson to be an habitual offender. The
trial court sentenced Jackson to an aggregate term of ninety-five
years....
Jackson v. State, 758 N.E.2d 1030, 1032-1033 (Ind. Ct. App. 2001) (citations
omitted). This Court affirmed Jackson’s convictions. Id. at 1037-1038.
Jackson’s trial counsel also represented him on appeal (Jackson’s “defense
counsel”).
[3]

Jackson filed a pro se petition for post-conviction relief on April 12, 2012. The
court ordered him to submit his case via affidavit,1 and on January 16, 2014, he
filed an amended petition in which, according to the post-conviction court’s
Findings of Fact and Conclusions of Law, he requested representation by the
public defender. The chronological case summary (“CCS”) indicates that a
notice was issued on the same day to “State PD Owens.” Appellant’s Appendix
Volume II at 8. The public defender amended the petition on Jackson’s behalf
on March 16,2017. In August 2017, the court held a hearing at which Jackson
appeared in person and by post-conviction counsel and, upon request by
Jackson’s counsel, admitted a certified copy of the trial record.

1 Specifically, an August 23, 2012 order indicated that the court “now stay[ed] all further proceedings until
such time as the Petition[er] informs the Court that he is prepared to proceed and further in fact receives
Petitioner’s Affidavit in Support of his Petition for Post[-]Conviction Relief.” Appellant s Appendix Volume
n at 78.
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 | March 16, 2021

Page 3 of 15

[4]

At some point after Jackson and the State rested, the court allowed Jackson to
make a statement and to speak with counsel, and his post-conviction counsel
informed the court that Jackson shared he would like to “proceed pro se at this
point,... and that he would like to amend his petition to include a claim of
ineffective assistance of trial counsel.” Transcript Volume II at 8. Jackson
proceeded pro se, raised the issues of ineffective assistance of trial and of appellate
counsel, and answered in the negative when the court asked him if the things
about which he was speaking were in the petition that he sought to file. The
court instructed Jackson’s post-conviction counsel to withdraw and confirmed
Jackson wished to proceed pro se while admonishing that “[w]e’re not gonna flip
flop back and forth” and that “if you’re gonna represent yourself, your [sic]
gonna represent yourself, right.” Id. at 12.

[5]

On February 16,2018, Jackson pro se filed an amended petition, a motion to set
an evidentiary hearing, a request for the court to subpoena his defense counsel,
and a supporting affidavit for the subpoena request. On February 20, 2018, the
State filed a motion to require Jackson to submit his case by affidavit, the post­
conviction court denied Jackson’s motion for a hearing “and other matters
related to said request,” granted the State’s motion, ordered Jackson to submit
his case by affidavit, and set a filing schedule which included a deadline for
Jackson to submit his case by affidavit on or before July 2, 2018. Appellant s
Appendix Volume E at 98. On April 23, 2018, Jackson filed a motion for leave
to amend his petition, which the court granted. His amended petition included
claims of effective assistance of counsel.
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 I March 16,2021

°i

Page 4 of 15

[6]

On May 25, 2018, Jackson filed requests, as well as affidavits in support, for the
court to issue subpoenas duces tecum for defense counsel and the County Jail in
Allen County. The court denied the request on June 8, 2018, and found that
Jackson failed to state any just cause or need for the requested information, and
that his requests were unduly burdensome, had a lack of sufficient specificity, and
“appeared to be nothing but fishing expeditions.” Id. at 126. On June 8 and
June 27, 2018, Jackson filed a request for interrogatories of his defense counsel.

[7]

On July 16, 2018, the State filed a motion to dismiss Jackson’s petition and
asserted he had not submitted his case for post-conviction relief by affidavit on or
before July 2,2018. Jackson filed a motion to depose his defense counsel on
August 10, 2018, alleging that he needed to complete discovery of counsel prior
to filing his affidavits. The post-conviction court issued an order three days later
which stated that Jackson’s request to depose defense counsel was forwarded to
the prosecuting attorney for a response within thirty days of the date of the order,
and on the same day, Jackson filed an Objection to Dismiss concerning the
State’s July 16, 2018 motion. On August 17, 2018, the post-conviction court
denied the State’s July 16, 2018 motion and advised Jackson to inform the court
when he was prepared to proceed in order that a hearing may be set. On August
30, 2018, the State filed a response to Jackson’s motion to depose, pointed to the
court’s August 17, 2018 order and indicated that it was apparent the court had
“decided to dispense with the submission of affidavits in this case, and instead
simply to hold an evidentiary hearing” whenever Jackson was prepared to

Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 | March 16, 2021

ID

Page 5 of 15

proceed.2 Appellant's Appendix Volume II at 152. The State further argued
Jackson made no showing that the proposed deposition’s purpose was anything
other than exploratory, or how the cost of the deposition would be paid.
[8]

On October 5,2018, Jackson filed another motion to set an evidentiary hearing
and “included his request for subpoenas” for his defense counsel. Id. at 155.
Later that month, he filed a potential exhibit list which indicated that he intended
to submit and refer to certain items, including the “Brief of the Appellee,” his
direct appeal in Jackson, 758 N.E.2d at 1030, and various lines from pages 88,
124, and 125 of “Vol. 1.” Id. at 158. The court scheduled a hearing on Jackson’s
petition for March 1, 2019, and it issued a subpoena for Jackson’s defense
counsel which was served on December 6, 2018. See November 29, 2018
Subpoena, Cause No. 02D06-1204-PC-54.

[9]

On January 22,2019, the court issued an order cancelling the March 1,2019
hearing and the subpoena for Jackson’s defense counsel, indicating that because
Jackson was not represented by counsel, the case should be submitted by
affidavit. The court further ordered Jackson to submit his case by affidavit by
April 1, 2019. On February 6, 2019, Jackson filed a motion to reconsider or to

2 Continuing, the State indicated that, even “if it had somehow been necessary for Mr. Jackson to depose [his
defense counsel] to prepare an adequate submission of his case by affidavit, it would no longer be necessary
for that purpose” given that Jackson had not stated a “reason why he cannot adequately question [his defense
coun sel] at the forthcoming evidentiary hearing, and therefore no reason why a deposition is needed in
addition to the evidentiary hearing.” Appellant’s Appendix Volume H at 152-153.
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 | March 16,2021

H

Page 6 of 15

certify order for interlocutory appeal, and the court denied the motion and later
ordered Jackson to submit the case by affidavit by May 17, 2019.
[10]

On March 25, 2019, Jackson filed motions to depose counsel and for the funds to
do so at the public’s expense, which the court denied. The court granted a
request for a continuance and ordered Jackson to submit the case by affidavit by
November 6, 2019. On May 8, 2019, Jackson filed a motion for leave to depose
counsel by affidavit, and the court granted the motion two days later and ordered
him to “send appropriate paperwork to counsel.” Id at 206. On July 25, 2019,
Jackson filed a Motion to Reconsider Giving Petitioner An Evidentiary Hearing
alleging that the “matter and claims before the [c]ourt at this time cannot be
properly resolved by affidavit and will require an evidentiary hearing” to
“develop the evidence required” for his ineffective assistance claims. Id. at 210,
212. The court denied the motion.

[11]

On August 19, 2019, Jackson filed a Motion To Compel Attorney To Produce
and requested discovery from his defense counsel, and the court ordered the
Public Defender’s Office to produce, within thirty days, the portions of Jackson’s
file that were discoverable. Following the denial of his request that the court
certify the order for interlocutory appeal, Jackson filed a motion to continue,
which the court granted, and a motion to reconsider the court’s order granting his
request to produce the portions of his file. In the motion to reconsider, Jackson
indicated that the discoverable materials he was requesting were “not portions of
the Defendant’s File, but [his defense counsel],” and he was requesting his
defense counsel to produce answers to the questions he previously submitted. Id.
Court of Appeals of Indiana I Memorandum Decision 20A-PC-1538 | March 16, 2021

12

Page 7 of 15

at 236. On September 26, 2019, the court granted the motion to reconsider in
part and ordered Jackson's defense counsel to answer the questions in the
interrogatories filed in June 2018, within thirty days of the order, provide notice
to the court of his answers, and serve a copy of the responses on Jackson. The
post-conviction court also granted Jackson's request for continuance and ordered
him to submit his case by affidavit by December 31,2019, and that proposed
findings of fact and conclusions of law were due on or before April 30, 2020.
[12]

On October 21, 2019, Jackson filed an affidavit in support of his petition for post­
conviction relief. In January 2020, he filed a Motion For Post-Conviction Court
to Take Judicial Notice of Own Records that requested judicial notice of the
“Record [o]f Proceedings and or Record on Appeal in relation to the jury/bench
trial held in this case ... from which is a record of this State and to make them
part of the P-CR record as an exhibit.” Id. at 229. He further stated that
since the Petitioner (1) cannot present the Record on Appeal and
or the Record of the Proceedings in that he will not be presented in
person to the Court for the purpose of this action to present
evidence on his own behalf, nor (2) is the Petitioner a licensed
attorney from whom could obtain the record which is required
even if he had access to the Court of Appeals.
Q Petitioner also cannot afford to hire legal counsel for the
purpose of obtaining the Record on Appeal and or the Record of
the Proceedings and presenting it to the Court as an exhibit for
evidence.
Id. at 228-229. In February 2020, the court granted the motion to take judicial
notice in part, indicating that it took judicial notice of its own “[c]ourt [f]ile (CCS
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 I March 16, 2021

13

Page 8 of 15

and all motions, pleadings filed),” and did not know what exactly Jackson
believes is necessary for his claims, or where exactly those records were currently
located. Id. at 232. It further noted Jackson was represented by an attorney at
trial and on appeal and at one time had state public defender representation in
the post-conviction proceeding, and it advised that he should contact his attorney
to obtain any records or copies of records he wished to make a part of the post­
conviction record.
[13]

On February 27, 2020, the State filed a response and supplemental response to
Jackson’s affidavit in support of his petition for post-conviction relief, and
indicated that it would “also make the exhibit volume of the original trial record”
available to the court for viewing if requested. Appellee’s Appendix II at 32.
The State indicated that in the exhibit volume of the original trial record, each
document bore a certificate signed by the clerk of the county circuit and superior
courts stating that it was a true and complete copy of “the record on file in ‘this
office.’” Id. at 33.

[14]

In March 2020, Jackson filed a response to the court’s judicial notice order
indicating an understanding that the court “would take judicial notice of its own
records rather than the Record of the Proceedings / Record on Appeal,” and he
requested that the court take notice of such documents and make them part of the
record. Appellant’s Appendix Volume II at 233. The court denied Jackson’s
request and indicated that it had “reviewed the Original Exhibit Volume, that it
would take judicial notice of copies of several exhibits which had been attached,
and that findings of fact and conclusions of law were still due April 30, 2020.
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 I March 16, 2021

Page 9 of 15

Appellee’s Appendix Volume II at 35. Following timely filings of proposed
findings by both the State and Jackson, the court denied his petition.
Discussion
[15]

Before discussing Jackson’s allegations of error, we observe that the purpose of a
petition for post-conviction relief is to raise issues unknown or unavailable to a
defendant at the time of the original trial and appeal. Reed v. State, 856 N.E.2d
1189, 1194 (Ind. 2006). A post-conviction petition is not a substitute for an
appeal. Id. Further, post-conviction proceedings do not afford a petitioner a
“super-appeal.” Id. The post-conviction rules contemplate a narrow remedy for
subsequent collateral challenges to convictions. Id. If an issue was known and
available but not raised on appeal, it is waived. Id.

[16]

We note the general standard under which we review a post-conviction court’s
denial of a petition for post-conviction relief. The petitioner in a post-conviction
proceeding bears the burden of establishing grounds for relief by a preponderance
of the evidence. Fishery. State, 810 N.E.2d 674, 679 (Ind. 2004); Ind. PostConviction Rule 1(5). When appealing from the denial of post-conviction relief,
the petitioner stands in the position of one appealing from a negative judgment.
Fisher, 810 N.E.2d at 679. On review, we will not reverse the judgment unless
the evidence as a whole unerringly and unmistakably leads to a conclusion
opposite that reached by the post-conviction court. Id. “A post-conviction
court’s findings and judgment will be reversed only upon a showing of clear error
— that which leaves us with a definite and firm conviction that a mistake has been
made.” Id. In this review, we accept findings of fact unless clearly erroneous,
Court of Appeals of Indiana I Memorandum Decision 20A-PC-1538 I March 16,2021

\b

Page 10 of 15

but we accord no deference to conclusions of law. Id. The post-conviction court
is the sole judge of the weight of the evidence and the credibility of witnesses. Id.
[17]

We further note that Jackson is proceeding pro se. Such litigants are held to the
same standard as trained counsel and are required to follow procedural rules.
Evans v. State, 809 N.E.2d 338, 344 (Ind. Ct. App. 2004), trans. denied. See also
Zavodnik v. Harper, 17 N.E.3d 259, 266 (Ind. 2014) (“Even if a court may take
reasonable steps to prevent a good faith pro se litigant from being placed at an
unfair disadvantage, an abusive litigant can expect no latitude.”). To the extent
Jackson fails to cite to the record or develop an argument with respect to the
issues he attempts to raise on appeal, those arguments are waived. See Cooper v.
State, 854 N.E.2d 831, 834 n.l (Ind. 2006) (holding that the defendant’s
contention was waived because it was “supported neither by cogent argument
nor citation to authority”); Shane v. State, 716 N.E.2d 391, 398 n.3 (Ind. 1999)
(holding that the defendant waived argument on appeal by failing to develop a
cogent argument), trans. denied.

[13]

Jackson contends his post-conviction counsel left him “to fend for himself pro
se,” and he argues that the post-conviction court improperly denied his request to
take judicial notice, and points to Huhbell v. State, 58 N.E.3d 268, 277 (Ind. Ct.
App. 2016), trans. denied. Appellant’s Brief at 7. He further argues the court
abused its discretion in denying his motions for discovery requests and to set an
evidentiary hearing.

Court of Appeals of Indiana j Memorandum Decision 20A-PC-1538 I March 16,2021

Page 11 of 15

[19]

The decision to take judicial notice of a matter, like other evidentiary decisions, is
reviewed for an abuse of discretion. Horton v. State, 51 N.E.3d 1154,1158 (Ind.
2016). Ind. Evidence Rule 201(a) governs the kinds of facts that may be
judicially noticed and provides that “[t]he court may judicially notice ... the
existence of... records of a court of this state.” Ind. Evidence Rule 201(c)
provides that “[t]he court... (1) may take judicial notice on its own; or (2) must
take judicial notice if a party requests it and the court is supplied with the
necessary information.” Ind. Post-Conviction Rule l(9)(b), provides in part that,
in the event a petitioner elects to proceed pro se7 the court “at its discretion may
order the cause submitted upon affidavit” and “need not order the personal
presence of the petitioner unless his presence is required for a full and fair
determination of the issues raised at an evidentiary hearing.”

[20]

In Hubbell, this Court reversed the denial of a post-conviction petition on the
basis that the post-conviction court refused to obtain a certified copy of HubbelTs
direct appeal record on his behalf upon request, reasoning that HubbelTs inability
to produce a certified copy of the record precluded him from presenting evidence
needed to assert claims he raised which “cannot be addressed on their merits
without access to” the record. 58 N.E.3d at 277. Unlike in Hubbell, the post­
conviction court here, upon request by Jackson through and by his post­
conviction counsel, admitted a certified copy of the trial record at the August
2017 hearing, which Jackson cited in his October 21, 2019 affidavit.

[21]

Following the admission of the record, Jackson indicated at the hearing he would
like to proceed^ se, and the post-conviction court confirmed his wish to do so.
Court of Appeals of Indiana I Memorandum Decision 20A-PC-1538 ] March 16,2021

n

Page 12 of 15

To the extent Jackson cites Ind. Evidence Rule 201(c), we note that, when
Jackson requested a “Record [o]f Proceedings and or Record on Appeal” in
January 2020, the court granted the motion, took judicial notice of its court file,
CCS, all motions, and any filed pleadings, and indicated that it did not know
what exact material Jackson believed was necessary for his claims. Appellant's
Appendix Volume II at 229. The court further indicated in March 2020 it had
reviewed the Original Exhibit Volume and ultimately took judicial notice of
several exhibits. As to any of Jackson's claims that would require reference to
the trial record, we additionally observe his case by affidavit referenced substance
within the record and that Jackson never accompanied his requests for judicial
notice with specificity as to the records needed, nor did he provide the court with
the reasons for his requests. See Ind. Evidence Rule 201(c)(2) (noting the court
must take judicial notice if a party requests it and “the court is supplied with the
necessary information”). Under these circumstances, we cannot say that the
court erred in its ruling on Jackson’s motion for judicial notice.
[22]

Regarding the motions for discovery requests, we note that, if “a PCR court does
not believe a proposed witness’s expected testimony would be relevant and
probative, it must make a finding on the record to that effect before refusing to
issue a subpoena.” Graham v. State, 941 N.E.2d 1091,1096 (Ind. Ct. App. 2011)
(citing Ind. Post-Conviction Rule l(9)(b)), affdon reh’g. When it denied
Jackson’s February 2018 motions for subpoenas duces tecum, the post-conviction
court found Jackson had failed to state any just cause or need for the requested
information, and that his requests were unduly burdensome and had a lack of
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 | March 16,2021

ft

Page 13 of 15

sufficient specificity. Previous to these findings, the court had ordered Jackson to
submit his case by affidavit, and leading up to the court’s January 2019 order
Jackson did not clarify or otherwise explain, in his October 2018 motion or
elsewhere, the relevance or probative nature of his discovery requests. Under
these circumstances, we cannot say Jackson has shown reversal is necessary on
this basis.
[23]

To the extent Jackson argues that the post-conviction court abused its discretion
by failing to hold an evidentiary hearing, Ind. Post-Conviction Rule l(9)(b)
provides that, in the event petitioner elects to proceed pro se, the court “at its
discretion may order the cause submitted upon affidavit” and “need not order the
personal presence of the petitioner unless his presence is required for a full and
fair determination of the issues raised at an evidentiary hearing.” Generally, “if
the PCR court orders the cause submitted by affidavit under Rule l(9)(b), it is the
court’s prerogative to determine whether an evidentiary hearing is required,
along with the petitioner’s personal presence, to achieve a ‘full and fair
determination of the issues raised[.]’” Smith v. State, 822 N.E.2d 193, 201 (Ind.
Ct. App. 2005), trans. denied. We review the post-conviction court’s decision to
forego an evidentiary hearing when affidavits have been submitted under Rule
l(9)(b) under an abuse of discretion standard. Id. Jackson does not point to any
specific claim in his petition for post-conviction relief or develop a cogent
argument that any of his claims required a factual determination. Under these
circumstances, we cannot say that reversal is warranted. See id. (holding that
“other than claiming that the affidavits he and the State submitted raised issues of
Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 | March 16,2021

\°1

Page 14 of 15

fact, [the petitioner] has failed to show how an evidentiary hearing would have
aided him”).
[24]

For the foregoing reasons, we affirm the post-conviction court’s order.

[25]

Affirmed.

Vaidik, J., and Pyle, J., concur.

Court of Appeals of Indiana | Memorandum Decision 20A-PC-1538 | March 16, 2021

30

Page 15 of 15

STATE OF INDIANA

IN THE ALLEN SUPERIOR COURT

)

3 SS:
COUNTY OF ALLEN

3

SAMUEL LEE JACKSON,
Petitioner,

3

CAUSE NO.

02D06-1204-PC-54
[02D04-0006-CF-338]

)

]
vs.

)

STATE OF INDIANA,
Respondent

3
3
3
FINDINGS OF FACT AND CONCLUSIONS OF LAW

This matter having come before the Court on Petition for Post-Conviction Relief filed
by Samuel Lee Jackson and the Petitioner having submitted his case for post-conviction
relief by affidavit the Court now being duly advised in the premises makes the following
Findings of Fact and Conclusions of La\y pursuant to Rule 1, Section 6 of the Indiana Rules
of Procedure for Post-Conviction Remedies.
FINDINGS OF FACT
1.

On January 18,2001, Petitioner Samuel Lee Jackson was found guilty, after a

jury trial, of Count 1, Murder, a felony, and Count 2, Residential Entry, a Class D felony. He
was also found to be a habitual offender. The Court accordingly entered judgment of
conviction. Mr. Jackson was sentenced to ninety-five [95] years on Count 1 [i.e., 65 years
enhanced by an additional 30 years on the basis of the habitual offender finding} and three
(3} years on Count 2. Count 1 and 2 were ordered to be served concurrent Attorney
Donald C. Swanson, Jr., represented Mr. Jackson at trial.
2.

On December 4,2001, Mr. Jackson's convictions were upheld on appeal.

Jackson v. State, 758 N.E.2d 1030 (Ind. Ct App. 2001}. Attorney Swanson also represented
Mr. Jackson on appeaL The Court ofAppeals of Indiana summarized the facts supporting Mr.
Jackson's convictions as follows.
The evidence most favorable to the convictions reveals that on June 18,2000,
1

RCD. BY: B.R.

JUL 21 at*

3t\

Glendora Shorts had an argument and physical altercation with Jackson, her
boyfriend of ten years. As Jackson left Shorts' house, he threatened to kill her
and her children. Shortly after midnight, Shorts' daughter, D.B., left Shorts'
upstairs bedroom where she had been watching a movie with her mother and
went to the bathroom, which was on the same floor as the bedroom. While in
the bathroom, D;B, heard four "punching" sounds. Transcript p. 123. She left
the bathroom and found that her mother's bedroom door was closed and
could not be opened all the way. D.B. was able to see someone wearing a red
shirt through a crack in the door; Jackson had been wearing a red shirt earlier
in the day. D.B. then heard a voice she clearly recognized as Jackson's say “I'm
naked and you can't come in here, your mom know [sic] I'm here." Transcript
p. 124. She ran downstairs to the basement bedroom of her brother, R.S., who
called 911. R.S. then heard someone that he was "positive" was Jackson
yelling at D.B. Transcript p. 159. After police arrived at the residence, D.B.
noticed that the front door was open, and she went upstairs with an officer to
Short's bedroom. Shorts was found lying in a pool of blood. A pathologist
determined Shorts died from multiple blunt force injuries to the head
consistent with being beaten with a baseball bat; a bat with red steins and
hair stuck to it was found on the front.porch.
Id. at 1032.
3.

On April 12, 2012, Mr Jackson filed a pro se Petition for Post-Conviction

Relief He initially declined to accept representation by the Public Defender of.Indiana. On
January 16,2014, he filed an Amended Petition for Post-Conviction Relief in which he
requested representation by the Public Defender. On March 16,2017, the Public Defender
amended the Petition on Mr. Jackson's behalf, and an evidentiary hearing was set for August
i

4,2017. At the hearing, however, Mr. Jackson objected to representation by the Public
Defender and elected to proceed pro se; the Public Defender accordingly withdrew. Mr.
Jackson, pro se, later amended the Petition on February 16,2018, and finally on April 23,
2018.
4.

The Petition, as ultimately amended, alleges that attorney Swanson rendered

ineffective assistance on appeal by failing to properly argue [i] the “failure of a jury
instruction for Direct Evidence compared to Circumstantial Evidence"; (ii) that
the jury
%
should have been instructed on a lesser included offense of murder; (lii) that the trial court
committed fundamental error in denying a continuance to “properly prepare, consult,
recruit and present defense experts at trial"; (iv) that the State used an ineligible felony to
2

support the habitual offender enhancement; (v) that the State foiled to prove each required
element of the habitual offender enhancement; and (vi] that the Court foiled to attach the
habitual offender enhancement to a specific count The Petition also alleges that Swanson
rendered ineffective assistance on appeal by foiling to raise more meritorious issues than
those that were raised, and to preserve issues raised. The Petition alleges that Swanson
rendered ineffective assistance at trial by failing to (i] properly communicate with Mn
Jackson; [ii] properly tender an instruction on direct evidence compared to circumstantial
evidence; (iii] properly tender an instruction on a lesser included offense of murder; (iv]
investigate whether Mr. Jackson was eligible for the habitual offender enhancement; (v]
object to the filing of the habitual offender enhancement; (vi] present an adequate defense
including expert witnesses; (vii] argue that State's Exhibits 82 and 83 were not selfauthenticating (viii) preserve the issue of "the State speaking on what the decedent would
say from the grave”; and (ix) file a motion to correct error with regard to the habitual
offender enhancement The Petition further purports to raise free-standing claims that the
trial court erred in refusing a jury instruction on circumstantial evidence and denying a
continuance to the defense.
5.

Pursuant to Indiana Post-Conviction Rule PC 1, Section 9(b], Mr. Jackson was

ordered to submit his case for post-conviction relief by affidavit After obtaining extensions
of time, he timely did so on October 21,2019.
6.

During the habitual offender phase of Mr. Jackson's trial, the prosecutor

stated the date of Mr. Jackson's first prior felony conviction (in cause number 02D04-9101CF-9], without objection, as the 11* day of December, 1991. Tr. 541. The handwritten date
on the judgment of conviction for cause number 02D04-9101-CF-9 (admitted into evidence
at trial as State’s Exhibit 82] is December 11,1991. The date of commission of the second
prior felony (in cause number 02D04-9608-DF-455] was August 1,1996, as shown in
State's Exhibit 83. In the exhibit volume of the original trial record, it may be seen that each
document in State's Exhibits 82 and 83 bears a certificate signed by the Clerk of the Allen
3

c 23"

Circuit and Superior Courts, stating that it is a true and complete copy of the record on file
in "this office”
CONCLUSIONS OF LAW
1.

The law is with the State of Indiana and against the Petitioner

2.

To prevail on a claim of ineffective assistance of counsel, a convicted

defendant must show both [1) that counsel's performance was deficient and (2) that the
deficient performance prejudiced the defense. Bouye v. State; 699 N.E.2d 620,623 (Ind.
1998). Because "[t]he object of an ineffectiveness claim is not to grade counsel's perfor­
mance," a court need not determine whether counsel's performance was deficient before
determining whether the defendant suffered prejudice; rather, M[i]f it is easier to dispose of
an ineffectiveness claim on the ground of lack of sufficient prejudice,... that course should
be followed." Bouye, 699 N.E.2d at 623, quoting Strickland v. Washington, 466 U.S. 668,697
(1984). To prove prejudice, the defendant must show a reasonable probability—that is, a
probability "sufficient to undermine confidence in the outcome"—that; but for the claimed
errors, the result of the proceeding would have been different Taylor v. State, 840 N.E.2d
324,331 (Ind. 2006). On the other hand, some ineffectiveness claims are more appropri­
ately resolved by a straightforward assessment of counsel's performance. Grinstead v. State,
845 N.E.2d 1027,1031 (Ind. 2006). The standard for determining the effectiveness of
assistance of counsel is the same for both trial and appellate counseL Mato v. State, 478
N.E.2d 57, 62 (Ind. 1985). Appellate counsel will not be found ineffective for failing to raise
an issue that would not have been successful. Mauricio v. State, 659 N.E.2d 869,872-873
(Ind. Ct App. 1995), trans. denied.
3.

On Mr. Jackson's direct appeal, the Court of Appeals held that “voice

identification evidence that places the defendant at the crime scene at the precise time and
place of the crime's commission is direct evidence.1' Jackson, 758 N.E.2d at 1036. As the
voice identification testimony of D.B. and R-S-, placing Mr. Jackson at the crime scene at the
precise time and place of the crime's commission [k£ at 1032], was direct evidence, Mr.
4

3A

Jackson was not entitled to a juiy instruction stating that M[w]here proofofguilt is by
circumstantial evidence only, it must be so conclusive in character and point so surely and
unerringly to the guilt ofthe accused as to exclude every reasonable theory ofinnocence" Id.
at 1036-37 (emphasis in original). Mr. Jackson asserts that, if only attorney Swanson had
presented better argument on appeal, the outcome in his case would have been the same as
in Hampton v. State, 961 N.E.2d 480 (Ind. 2012). Amended Petition, § 8(a)(i), 9(a)(i);
Petitioner’s Affidavit, at 3-4. Petitioner Hampton's conviction was not overturned in that
case. Hampton, 961 N.E.2d at 482,495. Furthermore, Hampton was about DNA evidence,
and the only reference to voice identification evidence in Hampton indicates that such
evidence is direct, not circumstantial: "if the proposed conclusion is that defendant and
others robbed the victim, the victim's voice identification of the defendant as one of the
robbers is consistent only with the proposed conclusion and is, therefore, direct evidence."
Id. at 490 n.8. As the outcome of Mr. Jackson's case would have been the same even if
Hampton had already been decided, attorney Swanson cannot be found ineffective for
failing to present argument like the reasoning later set forth in Hampton. Taylor, 840 N.E.2d
at 331.
4.

An instruction on a lesser included offense should be given if, and only if,

"there is a serious evidentiary dispute about the element or elements distinguishing the
greater from the lesser offense and if, in view of this dispute, a jury could conclude that the
lesser offense was committed but not the greater." Wright v. State, 658 N.E.2d 563,567 (Ind.
1995). Mr. Jackson complains that attorney Swanson was ineffective in failing to argue for a
jury instruction on a lesser included offense of murder [Amended Petition, § 8(a) (if),
9 [a) (ii); Petitioner's Affidavit, at 4], but identifies no serious evidentiary dispute in- view of
which the jury could have concluded that Mr. Jackson was guilty of a lesser included offense
rather than murder. The facts noted by the Court of Appeals—specifically, that Mr. Jackson
threatened to kill the victim, and later returned to beat her to death with a baseball bat
\Jackson, 758 N.E.2d at 103 2]—would indeed appear to rule out any serious evidentiary
5

<35 ;

dispute as to whether Mr. Jackson acted in sudden heat, or intended only to batter the
victim but not to kill her, or was merely reckless in killing her. Mr. Jackson therefore would
not have been entitled to a Jury instruction on voluntary manslaughter [IC 35-42-1-3
(1997]], involuntary manslaughter [IC 35-42-1-4 (1997]], or reckless homicide [IC 35-421-5 (1980]]—andhe does not suggest that attempted murder would have been a
possibility, in view of the undisputed fact of the victim's death. Swanson therefore cannot
be found ineffective for failing to argue for a jury instruction on a lesser included offense.
See Williams v. State, 706 N.E.2d 149,161 (Ind. 1999], cert denied, 529 U.S. 1113 (2000]
(failure to submit a jury instruction is not deficient performance "if the court would have
refused the instruction anyway"].
5.

Mr. Jackson asserts that attorney Swanson was ineffective in foiling to argue

that a continuance should have been granted to "properly prepare, consult, recruit and
present defense experts at trial." Amended Petition, § 8(a)(iii], 9(a](iii]; Petitioner's
Affidavit at 4. Swanson did argue that a continuance should have been granted, but without
reference to the possibility of calling defense experts. Jackson, 758 N.E.2d at 1033. A
defendant cannot show that failure to call a witness amounted to ineffective assistance
without producing evidence—not merely the defendant's own bare assertions- as to what
that witness would have said and how that witness's testimony would likely have affected
the outcome of the trial. Hunterv. State, 578 N.E.2d 353,355 (Ind. 1991]; McBride v. State,
515 N.E.2d 865, 867 (Ind 1987). Mr. Jackson conjectures that defense experts, if called,
could have cast doubt upon the identification of him as the perpetrator by voice
identification and DNA evidence. Amended Petition, § 9(a)(iii](e). He presents no evidence
having any tendency to establish the existence and identity of any experts who could
actually have done so. Swanson cannot be found ineffective for foiling to argue for a
continuance for the purpose of coming up with experts not shown to have existed, much
less to have been able to provide beneficial testimony for Mr. Jackson. Hunter, 578 N.E.2d at
355; McBride, 515 N.E.2dat867.
6

9b

6.

Mr. Jackson asserts that attorney Swanson was ineffective in failing to argue

that the State foiled to prove each required element of the habitual offender enhancement
Amended Petition, § 8(a)(v), (vii), 9(a)[v)f (vii); Petitioner's Affidavit, at 5-8. Specifically, he
asserts that the State foiled to prove the date of conviction for his first prior felony (in cause
number 02D04-9101-CF-9) because the date on the judgment of conviction (State's Exhibit
82) was unreadable. The date was readable, and was correctly stated by the prosecutor as
December 11,1991, a date that is prior to the second felony, which was August 1,1996
[Findings of Fact, 6]. Swanson therefore could not have successfully argued that the State
foiled to prove that Mr. Jackson was sentenced for the first prior felony before committing
the second See Caldwell v. State, 527 N.E.2d 711,712 (Ind 1988) (proof of habitual
offender status requires, inter alia, proof that defendant committed the second prior felony
after sentencing on the first). Accordingly, he cannot be found ineffective for foiling to do -so.
Mauricio, 659 N.E.2d at 872-873.
7.

Mr. Jackson also asserts that the authenticity of State's Exhibits 82 and 83

was questionable because the documents were not file-stamped Amended Petition, §
8(a)(v), (vii), 9(a)(v), (vii); Petitioner's Affidavit, at 5-8. Indiana Evidence Rule 902(4)
provides that a copy of an official record is self-authenticating if it is certified as correct by
the custodian or another person authorized to make the certification. The certificates
signed by the Clerk of the Allen Circuit and Superior Courts [Findings of Fact, f 6] sufficed
to render the documents self-authenticating under Rule 902(4). As a challenge to the
authenticity of the documents would not have succeeded, Swanson cannot be found
ineffective for foiling to raise such a challenge on appeal. Mauricio, 659 N,E.2d at 872-873.
Likewise, Swanson cannot be found to have rendered ineffective assistance by foiling to
object to State's Exhibits 82 and 83 at trial on the ground that they were not self­
authenticating. Sanchez v. State, 675 N.E.2d 306,310 (Ind. 1996) (a defendant cannot prove
that counsel's failure to move to suppress, or to object to the admission of evidence, consti­
tuted inadequate representation without showing that, had the objection been made, the
7

n

court would have had no choice but to sustain it").
8.

Mr. Jackson asserts that attorney Swanson foiled to argue that the Court did

not attach the habitual offender enhancement to a specific count. Amended Petition, §
8(a) (vi), 9(a) (vi). The remedy for failure to attach a habitual offender enhancement to a
specific count is, not surprisingly, to attach the habitual offender enhancement to a specific
count. Miller v. State, 563 N.E.2d- 578,584 (Ind. 1990), cited in Mclntire v. State, 717 N.E.2d
96,102 (Ind. 1999). Counsel’s failure to raise issues on appeal will lead to a finding of
deficient performance only when the omitted issues were "significant, obvious, and clearly
stronger than those presented” Wrinkles v. State, 749 N.E.2d 1179,1203 (Ind. 2001), cert
denied, 525 U.S. 861. No authority suggests that an issue may be "significant” if it would be
ascertainably worthless in terms ofany direct or indirect benefit to the defendant Mr.
Jackson has not shown that his sentence would have been shortened, nor that Swanson had
any reason to think it might be shortened, upon the attachment of the habitual offender
attachment to a specific count As the issue of attachment of the habitual offender
attachmentto a specific count was not significant, Swanson cannot be found ineffective for
foiling to raise it Id.
9.

The Court of Appeals held that attorney Swanson waived two issues on

appeal: prosecutorial misconduct and sufficiency of the evidence. Jackson, 758 N.E.2d at
1937. For the following reasons, the outcome on appeal would have been the same even if
Swanson had not waived those issues. Swanson therefore cannot be found ineffective for
waiving them. Mauricio, 659 N.E.2d at 872-873.
10.

The Court ofAppeals gave the following account of the alleged prosecutorial

misconduct:
During closing arguments, the prosecutor stated "[i]f [Shorts] could say anything to
you she would say to you, listen-” Transcript p. 537. At this point, Jackson objected to
the prosecutor’s attempt to invoke Shorts’ voice "from beyond the grave." The trial
court overruled the objection and allowed the prosecutor to proceed:
She would tell you if you’re beating someone to death with a baseball bat.
8

72>

whose hair... you heard Officer Meihls, where is that hair found, on the end
of the bat where you would beat somebody with it Who's [sic] hair is going to
be on that The person that's getting their head beat in or the person who is
holding the bat She's [sic] say use your common sense. She'd also say listen
to what Officer Meihls said. When you're swinging a bat, you know how, the
force of the bat is throwing the blood away from you....
Transcript p. 538. Jackson claims this commentary constituted prosecutorial
misconduct
Jackson, 758 N.E.2d at 1037. The Court of Appeals found this claim waived because there
was no request at trial for an admonishment or motion for a mistrial based on these
comments. Id A claim of prosecutorial misconduct requires a determination [1] that there
was misconduct by the prosecutor, and [2) that it had a probable persuasive effect on the
Jury's decision. Cox v. State, 696 N.E.2d 853,859 [Ind. 1998]. Mr. Jackson presents no
argument, and none can be imagined, to establish that the prosecutor s ill-advised and
unconvincing effort to recruit the deceased victim as an advocate in closing argument had
any tendency to lead the jury to find Mr. Jackson guilty. As there was no probable persuasive
effect on the jury's decision, Swanson would not have prevailed on appeal in raising this
claim of prosecutorial misconduct even if he had requested an admonishment or moved for
a mistrial. Cox, 696 N.E.2d at 859. Swanson therefore cannot be found ineffective for
waiving this claim. Maurido, 659 N.E.2d at 872-873.
11.

As to the sufficiency of the evidence, the Court of Appeals made it dear that

the outcome of the appeal would have been the same even if Swanson had not waived the
issue by failing to acknowledge the applicable standard of review: "Waiver notwith­
standing, we are convinced that the evidence in this case is more than sufficient to support
Jackson's convictions." Jackson, 758 N.E.2d at 1037. Swanson therefore cannot be found
ineffective in regard to that issue. Maurido, 659 N.E.2d at 872-873.
12.

Mr. Jackson asserts that Swanson was ineffective in foiling to properly com­

municate with him before trial Amended Petition, § 8[b] [i], 9[b][i]; Petitioner’s Affidavit,
9

at 8. A showing of inadequacies in investigation, consultation, or other preparation does not
alone suffice to prove ineffective assistance; the defendant must show that better
preparation would have resulted in better performance at trial, which in turn would have
created a reasonable probability of acquittal. See Ford v. State, 523 N.E.2d 742,747 (Ind.
1988). Mr. Jackson has made no showing as to how Swanson could or would have done
anything different at trial, much less created a reasonable probability of acquittal, as a
result of more extensive consultation or communication. Swanson therefore cannot be
found ineffective on this basis. Id.
13.

Mr. Jackson asserts that Swanson rendered ineffective assistance at trial in

failing to properly tender an instruction on "Direct Evidence compared to Circumstantial
Evidence." Amended Petition, § 8(b) (ii), 9(b) fix); Petitioner's Affidavit, at 8. An instruction
applicable when the evidence is entirely circumstantial would not have been given
[Conclusions of Law, If 3], and Mn Jackson does not assert that any other instruction should
have been given. Swanson cannot be found ineffective for failing to tender an instruction
that would not have been given. See Williams, 706 N.E.2d at 161.
14.

Ml Jackson asserts that Swanson rendered ineffective assistance at trial in

failing to tender instructions on lesser included offenses. Amended Petition, § 8(b) (iii),
9(b) (ii); Petitioner’s Affidavit, at 9. As such instructions would not have been given
[Conclusions of Law, f 4], Swanson cannot be found ineffective for failing to tender them.
See Williams, 706 N.E.2d at 161.
15.

Mr. Jackson asserts that Swanson rendered ineffective assistance at trial in

foiling to ascertain that Ml Jackson was not eligible for the habitual offender enhancement
Amended Petition, § 8(b)(iv), (v), 9(b)(iii), (iv); Petitioner's Affidavit, at 9-11. As Ml
Jackson has not shown that he was ineligible for the enhancement [Conclusions of Law, If
6], he has not shown that Swanson was ineffective in foiling to allege that he was ineligible.
Taylor, 840 N.E.2d at 331.
16.

Mr. Jackson asserts that Swanson rendered ineffective assistance at trial in
10

3o

failing to present testimony from defense experts. Amended Petition, § 8[b)(vi), 9[b)(v);
Petitioner's Affidavit, at 11. As Mn Jackson has not shown that any available expert
testimony would have been beneficial to his defense [Conclusions of Law, T 5], he has not
shown that Swanson was ineffective in failing to present such testimony. Hunter, 578 N.E.2d
at 355; McBride, 515 N.E.2d at 867.
17.

Mr. Jackson asserts that Swanson was ineffective in failing to discover that

unspecified 'lead witnesses" for the State had unspecified prior convictions and pending ‘
charges. Amended Petition, § 9[b)[v). He states no specific facts having any tendency to
establish that any identifiable witness had any identifiable prior convictions or pending
charges, much less that these could have been used for impeachment of the State's
witnesses. Swanson cannot be found ineffective for failing to discover unspecified
information. See Steele v. State, 536 N.E.2d 292,293 [Ind. 1989) (a claim of ineffective
assistance must identify counsel's claimed errors).
18.

Mr. Jackson asserts that Swanson was ineffective at trial in failing to request

an admonishment or to move for a mistrial in regard to the prosecutor's argument about
what the victim would say if she could speak. Amended Petition, §§ 8(b)[viii), 9(b)(vii);
Petitioner's Affidavit, at 12. As that argument had no probable persuasive effect on the
jury's decision [Conclusions of Law, If 10], the outcome at trial would have been the same
even if Swanson had requested an admonishment, and a mistrial would not have been
granted because the prosecutor's unpersuasive argument about what the victim would say
did not place Mr. Jackson in a position of grave peril to which he should not have been
subjected. See Francis v. State, 758 N.E.2d 528,532 [Ind. 2001). Swanson therefore cannot
be found ineffective for failing to request an admonishment or to move for a mistrial. Taylor,
840 N.E.2dat331.
19.

Mr. Jackson asserts that Swanson was ineffective in failing to file a motion to

correct error after Mr. Jackson was found to be a habitual offender. Amended Petition, §
8(b)(ix), 9[b)(vni); Petitioner’s Affidavit, at 12. Except under circumstances not present
11

31

here, a motion to correct error is not a prerequisite for appeal. Ind. Trial Rule 59(A). As Mr.
Jackson's ability to appeal the habitual offender adjudication was not affected by the
absence of a motion to correct error, Swanson cannot be found ineffective for foiling to file
such a motioa See Taylor, 840 N.E.2d at 331.
20.

Mr. Jackson purports to raise free-standing claims that the trial court erred in

refusing a jury instruction on circumstantial evidence and denying a continuance to the
defense. Amended Petition, §§ 8(c), 9(c). Those claims were raised and decided adversely to
Mr. Jackson on direct appeal. Jackson, 758 NLE.2d at 1033,1036-37. They therefore cannot
be relitigated in this post-conviction proceeding according to the doctrine of res judicata.
Washington v. State, 570 N.E.2d21,23 (Ind. 1991). Even if those claims had not been raised,
they would have been available on direct appeal, and therefore could not be raised in free­
standing form in this post-conviction proceeding. Woods v. State, 701 N.E.2d 1208,1224
(Ind. 1998), cert, denied, 528 U.S. 861.
21.

The Petitioner has foiled to prove his claim on the merits by a preponderance

of the evidence.
22.

DATE

The Petition for Post-Conviction Relief is hereby denied.

7

/ 7
PROOF OF NOTICE UNDER TRIAL RULE 72 (D)

A copy of the entry was served either by mail to the address of record, deposited in the
attorney's distribution box, or personally distributed to the following persons:
David H. McClamrock, DPA
Petitioner Samuel Lee Jackson, # 913731, Pendleton Correctional Facility,
4490 West Reformatory Road, Pendleton, IN 46064

12

32

Additional material
from this filing is
available in the
Clerk's Office.

